  AIR TRAFFIC CONTROL:
POTENTIAL FATIGUE FACTORS
   Federal Aviation Administration

    Report Number: AV-2009-065

     Date Issued: June 29, 2009
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Air Traffic Control:                      Date:    June 29, 2009
           Potential Fatigue Factors
           Federal Aviation Administration
           Report Number AV-2009-065

  From:    Ann Calvaresi-Barr                                       Reply to
                                                                    Attn. of:   JA-1
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our audit of fatigue factors that could impact air
           traffic controllers. We conducted this review at three Chicago area air traffic
           control facilities: Chicago O’Hare International Airport Air Traffic Control Tower
           (Chicago O’Hare), Chicago Terminal Radar Approach Control Facility (Chicago
           TRACON), and Chicago Air Route Traffic Control Center (Chicago ARTCC).
           These 3 facilities are among the top 10 busiest air traffic control facilities in the
           United States. Nationwide, during 2007, Chicago O’Hare was the second busiest
           air traffic control tower with 927,000 airport operations, Chicago ARTCC the
           fourth busiest air route traffic control center with 2.8 million operations, and
           Chicago TRACON the sixth busiest TRACON with 1.4 million operations.

           We conducted this audit at the request of Senator Richard Durbin of Illinois.
           Senator Durbin expressed specific concerns that staffing shortfalls, longer hours
           on the job, and a growing shortage of certified controllers may be causing
           controller fatigue at these critical facilities. He asked that we review factors that
           could potentially cause controller fatigue at these locations.

           Consistent with Senator Durbin’s request, our audit objectives were to (1) identify
           and evaluate key factors that could cause controller fatigue at Chicago O’Hare,
           Chicago TRACON, and Chicago ARTCC and (2) identify what measures FAA
           has taken to mitigate potential controller fatigue at these locations.

           We conducted our audit between January 2008 and February 2009 in compliance
           with generally accepted government auditing standards. Exhibit A details our
           audit scope and methodology. Exhibit B lists locations visited or contacted.
                                                                                   2


BACKGROUND
Fatigue is defined as a mental weariness resulting from exertion. Fatigue can be
mental or physical and can manifest as either somnolence (decreased wakefulness)
or as a general decrease in attention. Fatigue can cause problems for individuals
who perform tasks that require constant concentration, such as air traffic control.
Additionally, the nature of air traffic control requires shift work, which can
exacerbate fatigue because it often requires individuals to work at times when they
would normally be sleeping or sleep at times when they would normally be awake.

Since the 1980s, the National Transportation Safety Board (NTSB) has been
concerned about the effects of fatigue on individuals performing critical functions
in all transportation industries, including air traffic control. The NTSB has made
numerous fatigue-related safety recommendations addressing topics such as rest
periods between shifts, scheduling practices, and fatigue awareness training for
personnel working in the transportation industry. As part of its investigation into
the August 2006 crash of Comair Flight 5191, the NTSB expressed concerns in
April 2007 about the impact of fatigue on controllers working rotational shifts. In
its investigative report, the NTSB noted that the lone controller on duty at the time
of the accident had only 2 hours of sleep prior to his shift. Based on its Comair
investigation, the NTSB made specific recommendations to FAA regarding fatigue
for personnel performing air traffic control.

RESULTS IN BRIEF
We identified a number of factors at Chicago O’Hare, Chicago TRACON, and
Chicago ARTCC that could create potential fatigue conditions for controllers.
These factors include minimal hours between shifts and counter rotational shifts
with progressively earlier start times; scheduled overtime; and on-the-job training
(OJT), which requires a high level of concentration and focus. We conducted a
series of statistical analyses using schedule information and time and attendance
data and found that these factors are occurring at all three Chicago air traffic
control facilities in varying degrees. For example, we found that most controllers
at the three locations were scheduled to work at least one shift each week in which
their rest period between shifts was less than 10 hours.

We also found that overtime hours at Chicago O’Hare and Chicago TRACON had
increased significantly between fiscal year (FY) 2006 and FY 2007 (by 75 percent
and 67 percent, respectively). However, the potential impact on fatigue was
negligible because controllers did not always work all days of a scheduled 6-day
(i.e., overtime) work week. For instance, at Chicago O’Hare, 18 of the
66 controllers in our sample were scheduled to work a 6-day work week during the
52-week period we reviewed, but only 8 controllers (less than 50 percent) actually
worked all 6 days. This was because when scheduled for a 6-day work week,
                                                                                    3


controllers often took leave for shifts other than their scheduled overtime shift,
thus working less than 6 days while still earning overtime pay.

Additionally, we found that certified controllers at all three facilities conducted
OJT on a regular basis. The time spent conducting OJT in our samples ranged
from 1 to 5 days per week, and officials at all three facilities cautioned that OJT is
expected to increase significantly over the next several years as more trainees are
added to the workforce.

While all three facilities have high traffic volumes and complex airspace, their
staffing levels exceeded established staffing ranges for those locations. Those
ranges do not, however, consider the ratio of trainees to certified controllers. The
ratio of trainees to certified controllers at Chicago TRACON and Chicago O’Hare
exceed FAA’s national average of 27 percent (30 percent at Chicago TRACON
and 40 percent at Chicago O’Hare). 1 In addition, we found that none of the three
locations has established procedures for rotating controllers through more complex
positions during scheduled shifts, even though the complexity of various facility
positions can vary extensively.

Fatigue can have serious safety implications and has been identified by the NTSB
as a potential contributing factor in several operational errors (where controllers
fail to maintain required distances between aircraft). Yet, FAA does not
consistently address human factors issues, such as fatigue and situational
awareness, during either the preliminary or final operational error investigation
process. For example, at Chicago ARTCC, final operational error reports
indicated that a controller’s work schedule was a “rotation,” but there was no
further information provided to determine the days or the shifts the controller
actually worked.

FAA is taking several actions at the national level to address NTSB
recommendations regarding fatigue. These actions include amending FAA Order
7210.3 to (1) increase the time available for rest (between shifts) from 8 hours to
10 hours, (2) increase the time available for rest after working a midnight shift on
the fifth day of the week from 12 hours to 16 hours for facilities that utilize a 6-
day work week, and (3) allow controllers to sleep or rest when not controlling
traffic. FAA has also developed a 40-minute, computer-based instruction
refresher training module on the effects of fatigue on controller performance. At
the time of our review, however, none of these actions had been implemented at
the three facilities.

Our report makes a number of recommendations to FAA on actions it needs to
take to mitigate potential fatigue factors.

1
    As of December 2008.
                                                                                                                    4


FINDINGS

Controllers at All Three Facilities Were Scheduled To Work Shifts
with Rest Periods of Less Than 10 Hours Between Each Shift
Based on our sample analysis, controllers at the three Chicago air traffic control
facilities were scheduled to work at least one “quickturn” 2 between 66 and
86 percent of the time during the week. That is, controllers were scheduled to
work at least one shift each week where the rest period between that shift and the
next shift was less than 10 hours. 3 At the three Chicago air traffic control
facilities, controllers worked a type of schedule commonly referred to as a “2-2-1
rotation.” While the configuration of the 2-2-1 may vary, this particular
scheduling practice usually consists of a work week with two consecutive evening
shifts, followed by two consecutive day shifts, followed by one midnight shift, as
shown in table 1.

                               Table 1. Example of a 2-2-1 Schedule
                         Day            Shift          Start Time             End Time

                           1        Evening           4:00 p.m.             Midnight

                           2        Evening           2:00 p.m.             10:00 p.m.*

                           3        Day               7:00 a.m.             3:00 p.m.

                           4        Day               6:00 a.m.             2:00 p.m.*

                           5        Midnight          10:00 p.m.            6:00 a.m.
                      *Rest periods between shifts close to the 8-hour minimum required by
                       FAA regulations.

As shown in table 2 below, we found that both Chicago O’Hare and Chicago
ARTCC scheduled most controllers to have at least one quickturn during the
week. We also found that controllers “traded into” quickturns by switching their
assigned shift for another shift. Although controllers were scheduled to work
quickturns or “traded into” quickturns, they did not always work those shifts
because they either took leave or switched back to their originally scheduled shift.



2
    A “quickturn” is a schedule characterized by shifts with minimal rest periods between them.
3
    FAA Order 7210.3 requires at least 8 hours between shifts for rest. For the purpose of our review, we considered a
    quickturn to be less than 10 hours between shifts because FAA is in the process of amending FAA Order 7210.3 to
    increase the time available for rest from 8 hours to 10 hours.
                                                                                                           5


                              Table 2. Occurrence of Quickturns
         Facility             Sample Size          Scheduled at Least             Quickturns Not
                                                    One Quickturn                    Worked

    Chicago O’Hare                  66                    57 (86%)                        44%
 Chicago TRACON                     67                not applicable*              not applicable*

    Chicago ARTCC                   68                    45 (66%)                        27%
*Managers at the Chicago TRACON indicated that they too scheduled controllers to work the 2-2-1
 schedule. However, we could not verify this information because the TRACON was unable to provide
 schedule data for all the weeks in our sample.

This type of work schedule offers minimal opportunity for sleep when the time
required for commuting, eating, and other necessary daily activities is taken into
account. The NTSB has expressed concern regarding this type of work schedule
because it limits the amount of time for rest between shifts. However, it is
ultimately the responsibility of each controller to ensure that he or she gets a
sufficient amount of rest between shifts. Controllers we spoke with told us they
generally like this schedule because it only requires them to work one midnight
shift per week and allows more consecutive time off during the week (i.e., the
equivalent of a 3-day weekend).


Controllers at All Three Facilities Worked Schedules That Required
Overtime
All three Chicago air traffic control facilities needed and used overtime to meet
their operational needs. Scheduled overtime occurs when controllers are
scheduled, in advance, to work 6 days instead of 5 days during 1 week. However,
the methods for assigning overtime varied from facility to facility. For example,
Chicago TRACON and Chicago O’Hare used scheduled overtime (i.e., scheduled
6-day work weeks) to meet operational needs. In contrast, Chicago ARTCC
primarily used call-up overtime (i.e., controllers are called in to work on a
scheduled day off as needed).

Our results indicate that even though overtime hours have increased significantly
at two of the three facilities, 4 the potential impact on fatigue was negligible
because controllers did not always work all days of a scheduled, 6-day work week
(see table 3 below). For instance, at Chicago O’Hare, 18 of the 66 controllers in
our sample were scheduled to work a 6-day work week during the 52-week period
we reviewed, but only 8 controllers (less than 50 percent) actually worked all

4
    Overtime hours at Chicago O’Hare increased by 75 percent from FY 2006 to FY 2007, while overtime hours at
    Chicago TRACON increased by 67 percent.
                                                                                    6


6 days. This was because when scheduled for a 6-day work week, controllers
often took leave for shifts other than their scheduled overtime shift, thus working
less than 6 days but still earning overtime pay. Nonetheless, when controllers
actually work 6 days, the potential for fatigue can increase.

              Table 3. Occurrence of Overtime at Chicago Area
                        Air Traffic Control Facilities
      Facility           Sample Size       Scheduled To           Worked All
                                           Work a 6-day            6 Days
                                              Week
  Chicago O’Hare              66             18 (27%)            8 of 18 (44%)
 Chicago TRACON               67              16 (24%)           12 of 16 (75%)
  Chicago ARTCC               68               0 (0%)            not applicable

Controllers at All Three Facilities Conducted On-the-Job Training
We found that Certified Professional Controllers (CPCs) at all three facilities
conducted OJT on a consistent basis. Facility training for new hires consists of
several phases, the last of which is OJT. During OJT, a CPC oversees and
instructs a trainee as they work a control position handling real-time air traffic.
Officials at all three facilities agreed that conducting OJT can be fatiguing for the
OJT instructor because it requires a high level of concentration and attention to
monitor a trainee’s actions and quickly correct potential errors, as the instructor is
ultimately responsible for maintaining minimum separation between aircraft.

As shown in table 4 on the next page, the time CPCs spent conducting OJT in our
samples ranged from 1 to 5 days per week during the 52-week period we
reviewed. Specifically,

  at Chicago O’Hare, controllers in our sample conducted OJT at least 1 day
   during the week as much as 58 percent of the time.

  at Chicago TRACON, controllers in our sample conducted OJT at least 1 day
   during the week as much as 39 percent of the time.

  at Chicago ARTCC, controllers in our sample conducted OJT at least 1 day
   during the week as much as 43 percent of the time.
                                                                                   7


                          Table 4. Occurrence of OJT
      Facility         Sample Size     OJT Conducted          Average OJT
                                       During at Least      Conducted During
                                         One Shift           the Work Week
                                                                1 hour and
  Chicago O’Hare            66             38 (58%)             42 minutes
Chicago TRACON              67             26 (39%)         2 hours and 1 minute
                                                                2 hours and
 Chicago ARTCC              68             29 (43%)             57 minutes

While the way FAA trains controllers has not significantly changed over the years,
FAA expects to hire and train approximately 15,000 new controllers through 2018.
As FAA hires more new controllers to compensate for the ongoing surge in
attrition, the need for more OJT will increase and the potential for CPCs to
experience fatigue from conducting OJT may increase as well. The number of
controllers in training, the number of OJT instructors, and the time spent
conducting OJT by location will all be significant watch items for FAA as it
implements plans to hire and train the next generation of air traffic controllers.


Other Factors Can Also Create Fatigue Conditions for Controllers
Facility personnel also identified several other factors that could cause fatigue.
These include inadequate staffing levels, increased work load (i.e., traffic volume
and complexity), and extended time on position or lack of position rotation.
However, these factors could not be easily measured or statistically validated.
Therefore, we relied on evidence obtained from discussions with facility personnel
and macro-level data provided by FAA to determine the extent to which these
factors were occurring and to gauge the impact they could potentially have on
controller fatigue.

Staffing Levels
As shown in table 5 below, as of December 2008, overall staffing levels at each of
the three facilities exceeded established staffing ranges. Specifically, Chicago
O’Hare had 5 more controllers than the authorized staffing range, Chicago
TRACON had 3 more controllers, and Chicago ARTCC had 51 more controllers.
Those ranges do not, however, consider the ratio of trainees to certified
controllers.

Controllers in training now represent nearly 27 percent of the workforce
nationwide (up from 15 percent in 2004). However, that percentage can vary
                                                                                                                  8


  extensively by location—from as little as 0 percent (e.g., Pittsburgh air traffic
  control tower) to as much as 45 percent (e.g., Orlando International air traffic
  control tower). The ratio of trainees to total controller staff for all three Chicago
  air traffic control facilities ranged from 20 percent to 40 percent. In our view,
  including this information in reported staffing levels for FAA’s facilities is
  important as it could have a direct bearing on CPC fatigue and on-the-job training.

                              Table 5. December 2008 Staffing Levels
Facility      Authorized        Total on        CPCs       Trainees         Percent in              Number of
               Staffing          Board                                    (Training/Total         Facilities with
                Range           (CPCs +                                     on Board)             Higher Percent
                                Trainees)                                                           in Training
 Chicago                                                                                           46 out of 314
                  56-68              73            44           29               40%
 O’Hare                                                                                                (15%)
 Chicago                                                                                          126 out of 314
                 82-100             103            72           31               30%
TRACON                                                                                                 (40%)
 Chicago                                                                                          224 out of 314
                 312-382            433           348           85               20%
 ARTCC                                                                                                 (71%)

  FAA is now verifying (through a hired contractor) whether facility staffing ranges
  accurately reflect facility needs. FAA’s contractor has completed this process at
  Chicago O’Hare and Chicago ARTCC; however at the time of our review, the
  staffing ranges at Chicago TRACON had not been validated for accuracy.

  Traffic Volume and Complexity
  Facility personnel at all three locations told us that Chicago’s adverse weather
  conditions such as heavy snowfalls increase the complexity of its high-volume
  traffic, which could contribute to controller fatigue. Additionally, ongoing
  changes due to the O’Hare Modernization Project (OMP) 5 —such as added
  operational positions due to a new runway configuration and increased capacity—
  may increase operational intensity.

  In anticipation of the added operational requirements due to the OMP,
  Chicago O’Hare has requested an additional 10 controllers. Once the OMP is
  fully implemented, FAA should reevaluate the staffing standard to ensure that the
  new range is appropriate.




  5
      The OMP is a plan to increase the efficiency and capacity of the airport by adding a new runway, extending two
      existing runways, and relocating three other runways.
                                                                                   9


Position Rotation
Time on position is the average amount of time a controller spends controlling
traffic out of an 8-hour shift. The contract between FAA and the National Air
Traffic Controllers Association (NATCA) states that it is a mutual goal that
controllers should only work an operational position for 2 hours at a time before
they are relieved. During an 8-hour shift, controllers may work several different
positions but for no more than 2-hour increments. During the balance of their
shifts, controllers generally are either taking breaks, conducting non-operational
duties, attending briefings, or receiving recurrent training.

All three Chicago air traffic control facilities had an average time on position of
approximately 4 to 4.5 hours per shift. While the length of time on position is
important, not every control position can be equally compared. For example,
controllers at Chicago O’Hare responsible for runway oversight often have to
issue instructions to multiple aircraft, which requires a great deal of concentration
and focus. In contrast, there are other air traffic control positions that are less
complex, such as clearance delivery, which require no communication with
moving aircraft. If controllers work demanding positions several times during an
8-hour shift, the potential for fatigue increases. We found that none of the
Chicago facilities had written guidance in place to suggest how often or when
controllers should rotate through more difficult positions.


FAA Does Not Consistently Include Human Factors Issues When
Investigating Operational Errors
Fatigue can have serious safety implications and has been identified by the NTSB
as a potential contributing factor in several operational errors. Yet, FAA’s process
for investigating operational errors does not require specific data regarding all the
fatigue factors that we identified. An operational error occurs when an air traffic
controller does not ensure that FAA separation standards are maintained between
aircraft. FAA categorizes operational errors as categories A through D based on
the severity level of the operational error, with category A and category B being
the most severe forms of operational errors.

When an operational error occurs, an immediate investigation is conducted
consisting of two phases.

  The first phase results in a preliminary operational error report. This fact
   finding investigation is conducted by the facility within 4 hours of the
   occurrence of the operational error.

  The second phase results in a final operational error report.          The
   comprehensive final investigation identifies causal factors and recommends
                                                                                 10


   corrective action. The facility has 30 days to complete the final phase of the
   investigation.

We examined the extent to which the six fatigue factors we identified (work
schedule, overtime, OJT, staffing, traffic volume and complexity, and time on
position) were addressed following an operational error. To determine this, we
reviewed both the preliminary and final investigatory reports of all 41 category A
and category B operational errors that occurred at the three facilities during FY
2007 and FY 2008 and interviewed quality assurance personnel from each of the
facilities. We found that although the person investigating the operational error
follows a checklist when conducting the investigation, that person is not limited to
asking only the questions on the checklist. They may ask more detailed, probing
questions to determine whether fatigue contributed to the operational error. There
are, however, currently no required questions on human factors such as fatigue.

Of the six fatigue factors we identified, only information on two—traffic volume
and complexity and time on position—was required on both the preliminary and
final investigatory reports. Table 6 shows which fatigue factors are required for
review as part of the preliminary operational error report and the final operational
error report.

               Table 6. Potential Fatigue Factors Requirements
                        for Operational Error Reports
                              Preliminary Operational       Final Operational
   Potential Fatigue Factor
                                   Error Report               Error Report
  Work Schedule               Not Required                Required
  Overtime                    Not Required                Not Required
  On-the-Job Training         Not Required                Required
  Staffing                    Required                    Not Required
  Traffic Volume and          Required                    Required
  Complexity
  Time on Position            Required                    Required

Because FAA does not require that the other factors be addressed on both reports,
it does not accumulate data on human factors issues to determine if they contribute
to operational errors, how often they occur, and if they present any systemic
issues. FAA handles these remaining factors as follows:

Staffing Information: FAA requires staffing information (such as the number of
controllers on duty, on position, and on break) at the time of the operational error
on the preliminary investigative report but not the final report.

Work Schedule and OJT Information: Work schedule and OJT information is
not required on the preliminary investigative report but is an element of the final
                                                                                   11


report. However, the work schedule information provided by the facility for the
final report often does not provide enough information to identify the schedule
actually worked by the controller for the entire week. For example, at Chicago
ARTCC, the final report indicated that the controller’s work schedule was a
“rotation” and identified the amount of time worked in the controller’s previous
and current shifts prior to the operational error; however, there was no information
to determine the days or the shifts the controller worked during the entire week.
An example of an operational error investigative report is shown in the figure
below.

             Figure. Example of a Final Operational Error Report




Although the final operational error report indicates whether OJT was in progress
at the time of the operational error, it does not provide information on the length of
time OJT was conducted during the shift. Our analysis found that 17 percent of
the 41 operational errors occurred while the controller was conducting OJT.

Overtime Information:           We found that overtime information was not
documented on either the preliminary or the final operational error investigative
report. In our opinion, if the controller worked overtime the previous day or
worked more than 40 hours during the prior work week, this information should be
identified in the final operational error report.

Although we found that the preliminary and final operational error reports did not
always document the six fatigue factors we identified, we did find that some
facilities tried to capture information on human factors during the investigation of
operational errors. For example, Chicago O’Hare has developed and incorporated
questions regarding human factors such as fatigue, work schedule, and overtime
into the post-operational-error interview process. However, these efforts will
remain inconsistent across facilities without FAA system-wide requirements.
                                                                                     12


FAA Has Convened National Workgroups To Address Fatigue Factors
but Has Not Implemented Changes
The NTSB has made numerous fatigue-related safety recommendations addressing
topics such as rest periods between shifts, scheduling practices, and fatigue
awareness training. In terms of controller shift work and rest requirements, the
NTSB specifically recommended in April 2007 that FAA take the following
actions:

  “Work with the National Air Traffic Controllers Association to reduce the
   potential for controller fatigue by revising controller work-scheduling policies
   and practices to provide rest periods that are long enough for controllers to
   obtain sufficient restorative sleep and by modifying shift rotations to minimize
   disrupted sleep patterns, accumulation of sleep debt, and decreased cognitive
   performance.”

  “Develop a fatigue awareness and countermeasures training program for
   controllers and for personnel who are involved in the scheduling of controllers
   for operational duty that will address the incidence of fatigue in the controller
   workforce, causes of fatigue, effects of fatigue on controller performance and
   safety, and the importance of using personal strategies to minimize fatigue.
   This training should be provided in a format that promotes retention, and
   recurrent training should be provided at regular intervals.”

While FAA took actions at the national level by forming a work group in 2007 to
address these recommendations, most of these initiatives have not yet been
implemented and therefore have not filtered down to the facility level. The work
group recommended that FAA Order 7210.3 be amended to (1) increase the time
available for rest (between shifts) from 8 hours to 10 hours, (2) increase the time
available for rest after working a midnight shift on the fifth day of the week from
12 hours to 16 hours for facilities that utilize a 6-day work week, and (3) allow
controllers to rest when not controlling traffic during their shift. FAA Labor
Relations plans to send a letter to NATCA to inform it of the proposed changes to
FAA Order 7210.3 and provide an opportunity for NATCA to comment on the
proposed changes or request negotiations.

Although FAA has not finalized changes to its scheduling practices, it has made
progress with fatigue training and awareness. Specifically, FAA (1) added a 1-
hour lesson on the effects of fatigue to the air traffic initial qualifications training
courses at the FAA Academy; (2) developed a 40-minute, computer-based
instruction refresher training module on the effects of fatigue on controller
performance (scheduled to be implemented later this year); (3) developed and
distributed a brochure for controllers to help them better understand the effect of
shift work on fatigue; and (4) held a fatigue symposium in June 2008.
                                                                                     13


CONCLUSION
A number of factors exist at Chicago O’Hare, Chicago TRACON, and Chicago
ARTCC that could cause controller fatigue. While our review focused on only the
three Chicago facilities, it is likely that the fatigue factors that we identified exist
at other large air traffic control facilities throughout the Nation.                Our
recommendations focus on actions FAA needs to take at the national level to
mitigate potential fatigue factors and enhance the level of safety of the National
Airspace System.


RECOMMENDATIONS
We recommend that FAA:

 1. Reevaluate the staffing ranges for Chicago O’Hare once the OMP is fully
    implemented to ensure that the range is appropriate and meets the new
    operational needs of the facility.

 2. Approve the recommended changes to FAA Order 7210.3 and implement
    these changes at all air traffic control facilities. These changes include
    (a) increasing the minimum rest period between shifts from 8 to 10 hours,
    (b) increasing the time available for rest after working a midnight shift on the
    fifth day of a 6-day work week from 12 to 16 hours, and (c) allowing
    controllers to rest during their shift when not controlling traffic.

 3. Provide mandatory refresher training to controllers annually to reinforce
    fatigue awareness and mitigation strategies. This training should include a
    comprehensive, multi-faceted approach to minimizing employee fatigue.

 4. Expand operational error investigatory requirements to include more detailed
    information on fatigue factors, such as overtime, OJT, and work schedule
    that could create fatigue conditions to determine whether these factors are a
    contributory cause to operational errors, the frequency in which the factors
    are occurring, and whether or not the existence of the factors indicate a
    systemic problem. The reports should at a minimum include (a) whether the
    controller worked overtime during the previous day or worked more than
    40 hours during the prior work week; (b) the length of time the controller
    conducted OJT, if applicable; and (c) the exact days and shifts worked by the
    controller during the week the operational error occurred.

 5. Require all facilities to establish procedures to rotate controllers through
    challenging and less demanding positions during each shift to mitigate the
    potential for fatigue to occur.
                                                                                  14


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on May 26, 2009, and received its
response on June 24, 2009. FAA concurred with recommendations 1 through 4
and provided appropriate planned actions and target completion dates. FAA
partially concurred with recommendation 5, stating that procedures for directing
controller work assignments have been developed at the national level and are
included in FAA directives such as FAA Orders 7210.3 and 1320.1. FAA also
stated that additional guidance on providing relief breaks is contained in Article 33
of the Agency’s contract with NATCA. FAA’s response is included in its entirety
in the appendix to this report.

We request that FAA clarify its response to recommendation 5 as we were unable
to determine whether FAA Orders 7210.3 and 1320.1 specifically address
controller rotation in relation to position complexity. Likewise, Article 33 of
FAA’s contract with NATCA only addresses time on position before relief breaks
are given, not rotational requirements due to position complexity.


ACTIONS REQUIRED
FAA’s planned actions and target dates for recommendations 1, 2, and 4 are
responsive, and we consider these recommendations resolved pending completion.
While FAA’s actions to address recommendation 3 are also responsive, we request
that FAA provide us with its target issuance date for its pending Order on “Air
Traffic Technical Training.” In accordance with DOT Order 8000.1C, we request
that FAA clarify its response in writing regarding recommendation 5 within
30 days of this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact me at
(202) 366-1427 or Daniel Raville, Program Director, at (202) 366-1405.

                                         #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    Martin Gertel, M-100
    Anthony Williams, ABU-100
                                                                                15




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. As required by those standards, we obtained evidence that we
believe provides a reasonable basis for our findings and conclusions based on our
audit objectives. We used the following scope and methodology in conducting
this review.

We conducted this audit between January 2008 and February 2009. The audit
included site visits to three major air traffic control facilities in the Chicago
metropolitan area: Chicago O’Hare, Chicago TRACON and Chicago Air Route
Traffic Control Center. We also conducted audit fieldwork at FAA Headquarters
in Washington, DC; the FAA Training Academy in Oklahoma City, OK; and
NATCA Headquarters in Washington, DC.

To identify key factors that may contribute to controller fatigue we conducted site
visits at all three Chicago air traffic control facilities and conducted numerous
interviews with facility management; administrative personnel responsible for
quality assurance, training, and scheduling; and NATCA representatives.

To determine the extent to which the factors were occurring, the OIG statistician
selected a simple random statistical sample of controllers and their work weeks for
each of the three facilities. The universe consisted of 52 work weeks for each
controller for a 1-year scheduling period beginning August 5, 2007, and ending
August 2, 2008. Chicago O’Hare had 45 controllers and therefore a schedule with
2,340 controller work weeks (45 controllers x 52 weeks) from which a sample of
66 was selected. Chicago TRACON had 69 controllers and therefore a schedule
with 3,588 controller work weeks (69 controllers x 52 weeks) from which a
sample of 67 was selected. Chicago ARTCC had 334 controllers and therefore a
schedule with 17,368 controller work weeks (334 controllers x 52 weeks) from
which a sample of 68 was selected.

We reviewed work schedules and time and attendance records covering the time
period August 5, 2007, to August 2, 2008, for each of the controllers in our
sample. First, we analyzed the original or published work schedule for every
controller in our sample to determine if the controller was scheduled to work any
quickturns or any overtime (i.e., a 6-day work week).

Next, we compared the original or published work schedule to the amended work
schedule to determine if the controller “traded into” any quickturns. Lastly, we
compared the amended schedule to the time and attendance record to validate the
hours actually worked covering a 52-week period. When a discrepancy existed,


Exhibit A. Scope and Methodology
                                                                                 16


we relied on the time and attendance record to determine what was actually
worked as it represents the basis for controller official pay and leave. We also
reviewed time and attendance records to determine if the controller conducted OJT
during the shift.

We utilized the results of our statistical sample to project the frequency with
which controllers were scheduled to work quickturns and overtime and the
frequency with which controllers conducted OJT.

We also reviewed fiscal year 2007 and 2008 preliminary and final operational
error reports for each of the three facilities. During our review, we focused on the
most severe operational errors, classified as categories A and B by FAA. We
reviewed the summary of the preliminary operational error report to determine if
human factors, such as fatigue, were identified during the initial investigation of
the operational error.

In addition, we determined the number of personnel involved in the operational
error, the performance level of the employee involved in the operational error, any
in-progress training at the time of the error, and the duration of the controller’s
time on position. Finally, we reviewed the time and attendance records of the
primary employee involved in the operational error to determine (1) the extent to
which the controller worked overtime (i.e., 6-day work week), (2) the extent to
which the controller conducted OJT, and (3) the total number of hours the
controller worked air traffic during the sample week.

To identify the measures FAA has taken to mitigate potential controller fatigue,
we interviewed officials at the national level from the Air Traffic Organization,
the Civil Aerospace Medical Institute, and NATCA. We also interviewed officials
at the FAA Training Academy to identify current training methods and future
training initiatives. Lastly, we attended an FAA-sponsored symposium geared
toward identifying and mitigating fatigue within the aviation industry.




Exhibit A. Scope and Methodology
                                                                               17




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED


En Route Facilities (Air Route Traffic Control Center)

  Chicago Air Route Traffic Control Center

Terminal Facilities

  Chicago O’Hare Air Traffic Control Tower

  Chicago Terminal Radar Approach Control Facility

FAA Headquarters, Washington, DC

  FAA Air Traffic Organization, Safety

  FAA Air Traffic Organization, Terminal and Enroute

  FAA Training Academy, Oklahoma City, Oklahoma

Third Parties

  National Air Traffic Controllers Association Headquarters, Washington, DC

  FAA-Sponsored Fatigue Symposium in Vienna, Virginia




Exhibit B. Activities Visited or Contacted
                                                          18




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Daniel Raville                       Program Director

  Angela McCallister                   Project Manager

  Annie Glenn                          Senior Analyst

  Craig Owens                          Senior Analyst

  Kevan Moniri                         Analyst

  Natasha Thomas                       Analyst

  Petra Swartzlander                   Statistician

  Andrea Nossaman                      Writer/Editor




Exhibit C. Major Contributors to This Report
                                                                                             19




APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:           June 24, 2009
To:             Lou E. Dixon, Assistant Inspector General for Aviation and Special Program
                Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:        OIG Draft Report: Air Traffic Control: Potential Fatigue Factors


Thank you for the opportunity to review and comment on the findings and recommendations of
the subject draft report dated May 26. The Federal Aviation Administration (FAA) concurs with
four recommendations and concurs in part with one recommendation.

The following is FAA’s response to each of your recommendations:

OIG Recommendation 1: Re-evaluate the staffing ranges for Chicago O’Hare once the O’Hare
Modernization Project is fully implemented to ensure that the range is appropriate and meets the
new operational needs of the facility.

FAA Response: Concur. FAA performs yearly reviews of staffing ranges at every air traffic
facility. If necessary, FAA adjusts those ranges. These ranges are published in the annual
updated Controller Workforce Plan which this year was published on April 1. Controller staffing
can be amended for significant changes in the operation regardless of the published ranges.

OIG Recommendation 2: Approve the recommended changes to FAA Order 7210.3 and
implement these changes at all air traffic control facilities. These changes include (a) increasing
the minimum rest period between shifts from 8 to 10 hours, (b) increasing the time available for
rest after working a midnight shift on the fifth day of a 6-day work week from 12 to 16 hours,
and (c) allowing controllers to rest during their shift when not controlling traffic.

FAA Response: Concur. The Notices and Document Change Proposals have been developed and
are awaiting final internal approval. The FAA expects final action on these documents by
September 30, 2009, and will provide copies to the OIG upon completion.



Appendix. Agency Comments
                                                                                             20


OIG Recommendation 3: Provide mandatory refresher training to controllers annually to
reinforce fatigue awareness and mitigation strategies. This training should include a
comprehensive, multi-faceted approach to minimizing employee fatigue.

FAA Response: Concur. In response to the National Transportation Safety Board’s
Recommendation A07-31, the FAA’s Controller Training and Development Group, AJL-11
developed and implemented training on fatigue awareness and countermeasures. A one hour
lesson was added to the Terminal and En Route initial qualification training program on
May 20, 2008. All initial qualification students receive this training. In addition, an awareness
brochure was provided to each controller through their facility on December 1, 2008. Recurrent
training using computer based instructions (CBI) was distributed to field facilities and a notice
published making the training mandatory. This notice has been incorporated into the soon to be
distributed Order 3120.4, “Air Traffic Technical Training.” The initial qualification lesson,
brochure, and CBI course were updated to include the concept of “sleep inertia.” These updates
were completed on March 11, 2009.

OIG Recommendation 4: Expand operational error investigatory requirements to include more
detailed information on fatigue factors, such as overtime, on-the-job training (OJT), and work
schedule that could create fatigue conditions to determine whether these factors are a
contributory cause to operational errors, the frequency in which the factors are occurring, and
whether or not the existence of the factors indicate a systematic problem. The reports should at a
minimum include: (a) whether the controller worked overtime during the previous day or worked
more than 40 hours during the prior work week; (b) the length of time the controller
conducted OJT, if applicable; and (c) the exact days and shifts worked by the controller during
the week the operational error occurred.

FAA Response: Concur. The FAA is actively pursuing significant modifications to its
processes for identifying, reporting, and analyzing losses of separation including, but notably
not limited to, those that are currently categorized as operational errors.

As a fundamental aspect of this effort, FAA will be implementing processes in fiscal year 2010
to collect schedule data. This data will include time-on-position, shift schedule, and OJT
instruction time for each person staffing operational positions associated with an identified loss
of separation for at least a fourteen day period leading up to the event.

OIG Recommendation 5: Require all facilities to establish procedures to rotate controllers
through challenging and less demanding positions during each shift to mitigate the potential for
fatigue to occur.

FAA Response: Concur in part. The FAA agrees that procedures for directing work
assignments are required. FAA does not agree that this procedural development should occur at
the facility level. Adequate procedures were developed at the national level and are included in
FAA directives including FAA Order 7210.3. Air traffic control facilities are mandated to
adhere to the provisions of these orders by FAA Order 7210.3 and FAA Order 1320.1.
Additional guidance on providing relief breaks is contained in Article 33 of the FAA, National
Air Traffic Controllers Association Contract. In the event that a conflict exists between an FAA
Order and the contract, the provisions of the contract are followed.




Appendix. Agency Comments
                                                                                             21


FAA air traffic control facilities are properly applying the provisions of these orders as they
pertain to workload assignments and relief breaks.




Appendix. Agency Comments
